                                                                 Issue Date
                                                                          July 25, 2007
                                                                 Audit Report Number
                                                                      2007-BO-1006




TO:         Ellen R. Connolly, Director, Boston Multifamily Hub, 1AHMLA
            Henry S. Czauski, Deputy Director, Departmental Enforcement Center, CV


FROM:
            John A. Dvorak, Regional Inspector General for Audit, 1AGA

SUBJECT: Multifamily Project Deficiencies Resulted in More Than $730,000 in Cost
         Exceptions for Moosup Gardens Apartments, Moosup, Connecticut


                                   HIGHLIGHTS

 What We Audited and Why


             We audited the records for Moosup Gardens Apartments (project), a U.S.
             Department of Housing and Urban Development (HUD)-insured multifamily
             project in response to a request from HUD. Our audit objective was to determine
             whether the project’s costs were accurately reported to HUD and in accordance
             with the regulatory agreement and HUD’s requirements.


 What We Found


             We identified questioned costs and opportunities for funds to be put to better use
             totaling more than $730,000 (see appendix A). These cost exceptions were due to
             weak internal controls, lack of policies for related company transactions, and
             inadequate accounting procedures. As a result, the owners (1) repaid advances
             when the project was in a non-surplus-cash position, charged ineligible costs, and
             did not adequately support payments to their related company; (2) paid their
             related company more than $230,000 in unreasonable and unsupported relocation
             services costs when the project was in a non-surplus-cash position; (3) included

                                              1
           more than $280,000 in unreasonable and unsupported expenses in their HUD-
           insured mortgage cost certification; and (4) did not properly manage the HUD-
           assisted learning center.


 What We Recommend


            We recommend that the director of HUD’s Boston Multifamily Hub require the
            owners to (1) repay the project for ineligible use of operating funds while the
            project was in a non-surplus-cash position and pay down the project’s mortgage
            for unsupported development costs; (2) repay the project for unreasonable and
            unsupported relocation costs; (3) make a principal payment to pay down the
            project’s mortgage for unreasonable relocation costs and provide support for or
            make a principal payment to pay down the project’s mortgage for unsupported
            operations expenses included in the mortgage amount HUD insured; and (4)
            establish and implement a business to plan which ensures that the learning center
            delivers effective programs in an economical and efficient manner and becomes
            self-sufficient without HUD funding.

            Further, we recommend that HUD pursue administrative sanctions as appropriate
            against the responsible parties for the unreasonable and unsupported
            disbursements cited in this report.

            For each recommendation in the body of the report without a management
            decision, please respond and provide status reports in accordance with HUD
            Handbook 2000.06, REV-3. Also, please furnish us copies of any
            correspondence or directives issued because of the audit.

Auditee’s Response


           We provided the owners a draft audit report on May 25, 2007, and held an exit
           conference on June 5, 2007, to discuss the draft report. We received the owners’
           written comments on June 12, 2007. The owners generally disagreed with our
           conclusions in Findings 1, 2, and 3 and agreed to provide additional support they
           believed would ultimately support some of the questioned costs. The owners
           generally agreed with Findings 4, 5, and 6 and; 1) agreed to revise their learning
           center business and financing plan, 2) repaid ineligible management fees, and 3)
           agreed to establish new contracting procedures. The complete text of the owners’
           response, along with our evaluation of that response, can be found in appendix B
           of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1 The Owners Repaid Advances When the Project Was in a Non-         5
                Surplus-Cash Position, Charged Ineligible Costs, and Did Not
                Adequately Support Payments to Their Related Company
      Finding 2 The Owners Paid Their Related Company Unreasonable and            9
                Unsupported Relocation Services Costs When the Project Was in a
                Non-Surplus-Cash Position.
      Finding 3 The Owners Included Unreasonable and Unsupported Expenses in      12
                Their HUD-Insured Mortgage Cost Certification
      Finding 4 The Owners Did Not Properly Manage the HUD-Assisted Learning      15
                Center
      Finding 5 The Owners Paid Their Related Management Company Unreasonable     18
                Management Fees
      Finding 6 The Owners’ Procurement Procedures Did Not Comply with HUD        20
                Regulations

Scope and Methodology                                                             22


Internal Controls                                                                 23


Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use              25
   B. Auditee Comments and OIG’s Evaluation                                       26
   C. Schedule of Related Company Relocation Services Costs                       43
   D. Schedule of Related Companies                                               45




                                            3
                            BACKGROUND AND OBJECTIVES


Moosup Gardens Apartments (project) is a multifamily 88-unit apartment complex located in
Moosup, Connecticut, with 27 project-based Section 8 units and 61 units charged at market rates.
In addition to the project-based Section 8 units the U.S. Department of Housing and Urban
Development (HUD) provides vouchers for 11 market rents from the Housing Choice Voucher
program.

The owners, HDASH Limited Liability Corporation (LLC) and its related company Vesta Equity
2003 LCC, purchased the property in December of 2003 and embarked on substantial
rehabilitations. 1 The owners financed the purchase and renovations, and HUD insured the
mortgage through Section 221(d)4 of the National Housing Act (Act). The Act authorizes HUD
to insure lenders against loss on mortgage defaults and assists owners in the construction or
rehabilitation of housing for eligible families by making capital more readily available.

The project remained operational during the rehabilitation, and the $1.8 million in renovations
completed in February 2005 included new appliances, repair of structural failures, replacement
of siding, and upgrading of boilers. The owners also added a Neighborhood Network Computer
Center (learning center) and community room.

The owners submitted a Mortgager’s Certificate of Actual Cost (form HUD 92330) to HUD on
March 31, 2005, to determine the amount of mortgage insurance HUD would provide.

Our overall audit objective was to determine whether the project’s costs were accurately reported
to HUD and in accordance with the regulatory agreement and HUD’s requirements. Our specific
audit objectives were to determine whether the owners (1) used operating funds to repay owner
advances when the project was in a non-surplus-cash position and whether payments from
development funds to related companies were eligible and adequately supported; (2) used project
funds to pay their management company reasonable amounts for relocation services; (3) included
reasonable costs in their HUD-insured mortgage certification; (4) properly managed, accounted
for, and reported learning center costs; (5) charged the project correct management fees; and (6)
had adequate contracting procedures to show that costs paid were reasonable.

The issues identified in our report deal with administrative and internal control activities that we
feel are necessary to bring to the owners’ attention now. Other matters regarding the owners’
management may remain of interest to our office as well as other Federal agencies. Release of
this report does not immunize any individual or entity from future civil, criminal or
administrative liability or claim resulting from future action by the Department of Housing and
Urban Development and or other Federal agencies.




1
    See appendix D for a description of the project’s related companies.

                                                            4
                                     RESULTS OF AUDIT

Finding 1: The Owners Repaid Advances When the Project Was in a
Non-Surplus-Cash Position, Charged Ineligible Costs, and Did Not
Adequately Support Payments to Their Related Company
The owners used $125,000 in project operating funds to repay advances from their related
company when the project was in a non-surplus-cash position. The owners also paid $110,000 in
project funds to their related managing member for ineligible and unsupported advances and
operating costs. In addition, they did not adequately support payments of more than $56,000 to
their related company. The advances were made to cover operating shortfalls and were repaid
due to weak internal controls and lack of policies for related company transactions. The
ineligible and unsupported costs were caused by inadequate accounting procedures. As a result,
more than $291,000 in project operating funds was not available for project operations. In
addition, HUD overinsured the project for the ineligible and unsupported acquisition costs (see
finding 3).


    The Owners Improperly Repaid
    Advances


                 The owners’ related companies advanced $305,209 in working capital to the
                 project during fiscal years 2004 though 2005. Vesta Equity 2003, the managing
                 member for the project, advanced $182,000 to the project’s operating account to
                 cover operating costs. Also, Vesta Corporation, a holding company, paid
                 $123,209 for acquisition costs for the project. All three companies share common
                 ownership. Although HUD encourages owners to make operating advances to
                 projects in critical situations, repayment for these advances must be made from
                 surplus cash at the end of the annual period 2 unless HUD approves another
                 method of payment. However, the owners repaid their related company $19,000
                 from operating funds during construction and an additional $106,000 following
                 construction. The repayments were prohibited because the project did not have
                 surplus cash and reported operating losses during fiscal years 2004 through 2005
                 totaling $314,057. 3 The repayments occurred due to weak internal controls and
                 the lack of policies regarding related company transactions.




2
 Financial Operations and Accounting Procedures for Insured, HUD Handbook 4370.2, chapter 2-11A.
3
 The project did not have surplus cash during the construction period, December 23, 2003 through March 31, 2005
and reported a surplus cash deficit of $56,096 at fiscal year end 2005.

                                                       5
The Owners paid their Management
Company $110,000

                 The owners obtained $110,000 from the state of Connecticut for the learning
                 center and deposited the funds into the project’s bank account on November 8,
                 2005. The next day, they paid $110,000 to Vesta Equity 2003, their related
                 managing member. We asked the owners to provide supporting documentation to
                 show how the funds were used. 4 However, they only provided an email stating
                 that the $110,000 was for repayment of $96,348 in advances the management
                 company made in 2004 and 2005 to cover operating shortfalls, and $13,652 was
                 for staff costs. We determined that the operating shortfalls in 2004 and 2005 were
                 primarily due to unreasonable relocation costs paid to the management company
                 (see finding 2). Also, the owners provided no documentation to support the staff
                 costs. Because the project was in a non-surplus-cash position the repayment of
                 $96,348 was an ineligible project expense and the $13,652 was unsupported and
                 must be repaid.


    The Owners’ did not Support
    $56,877 in Development Costs

                 The owners used $123,209 of the project’s development funds to repay their related
                 company, Vesta Corporation, for acquisition costs but provided adequate support for
                 only $66,332. Therefore, we questioned the balance of $56,877 as unsupported
                 costs. The unsupported costs were paid to the owners’ mortgage company and bank
                 and may be eligible project costs. However, the owners did not provide approved
                 invoices and documentation to clearly show (1) the amount paid (2) what the
                 payments were for, (3) that the payments were authorized development costs, and
                 (4) that the project benefited from the payments. These repayments were
                 unsupported due to weak accounting procedures and the lack of controls to ensure
                 compliance with the project’s regulatory agreement and HUD regulations.



Conclusion


                 The owners improperly repaid their related company $125,000 for advances when
                 the project was in a non-surplus-cash position. The owners also paid $110,000 in
                 project funds to their related company for ineligible and unsupported advances
                 and operating costs. In addition, the owners did not support $56,877 in costs paid
                 from development funds to their related company. These problems occurred due

4
 The owners’ regulatory agreement with HUD allows the use of project funds only for reasonable operating
expenses and necessary repairs when the project is in a non-surplus–cash position (regulatory agreement par 6b).

                                                         6
          to weak internal controls and the lack of policies regarding related company
          transactions. The ineligible and unsupported payments were caused by
          inadequate accounting procedures and the lack of compliance controls. As a
          result, $291,877 was not available to the project, and HUD overinsured the
          project’s loan (see finding 3).

Recommendations


          We recommend that the director of HUD’s Boston Multifamily Hub require the
          owners to

          1A.     Repay the project $106,000 from non-project funds, for owner advances
                  with the amounts reimbursed placed in the project’s reserve for replacement
                  or a restricted capital account that requires HUD approval for the release of
                  the funds.

          1B.     Make a $19,000 principal payment or establish an escrow with the lender
                  from nonproject funds or the restricted account established under
                  recommendation 2A to pay down the amount of overinsurance due to
                  ineligible owner advance repayments during construction.

          1C.     Repay the project $96,348 from nonproject funds, for the ineligible
                  payments to Vesta Equity 2003, with the amounts reimbursed placed in the
                  project’s reserve for replacement or a restricted capital account that requires
                  HUD approval for the release of the funds.

          1D.     Support or repay the project $13,652 for the unsupported staff costs, with the
                  amounts reimbursed placed in the project’s reserve for replacement or a
                  restricted capital account that requires HUD approval for the release of the
                  funds.

          1E.     Provide support for the $56,877 in development funds paid to Vesta
                  Corporation or pay down the project’s mortgage $56,877 from nonproject
                  funds for unsupported development costs.

          1F.     Establish written accounting procedures to ensure that transfers of owner
                  funds to the project are properly classified and approved by HUD before
                  transfer and repayment while the project is in a non-surplus-cash position.

          1G.     Establish and implement written procedures to maintain approved invoices
                  and adequate documentation to support all project expenditures and transfers
                  between related companies.




                                             7
                  We also recommend the deputy director, Department’s Enforcement Center

                  1H.      Pursue all applicable administrative sanctions against the Owners and their
                           related Management Agent and their principals, including, but not limited to
                           suspension and debarment.5




5
  "In implementing this recommendation, the deputy director should consider the issues reported in all of the
findings in this report."


                                                         8
                                     RESULTS OF AUDIT

Finding 2: The Owners Paid Their Related Company Unreasonable and
Unsupported Relocation Services Costs When the Project Was in a Non-
Surplus-Cash Position
The owners paid their related company and vendors $230,360 in unreasonable and unsupported
fees for relocation services when the project was in a non-surplus-cash position. The costs were
unreasonable and unsupported because they exceeded the $55,000 HUD approved, and the
owners failed to show that the amount paid did not exceed what would have been incurred in
making arms-length purchases on the open market and maintain adequate records to support the
rates and hours charged. These conditions were caused by weak internal controls for accounting
and related party transactions. As a result, the $230,360 in fees paid contributed to unnecessary
operating losses, weakening the project’s financial condition, and caused HUD to overinsure the
mortgage (see finding 3).



    The HUD-Approved Amount for
    Relocation Costs Was Exceeded


                 The owners charged the project $285,360 to relocate 48 tenants during
                 renovations, $230,360 more than the $55,000 HUD approved. 6 This was an
                 increase of more than 400 percent. The owners capitalized $154,068 as
                 development costs 7 and charged the remaining $131,292 to project operations in
                 violation of generally accepted accounting principles for consistency. Although a
                 portion of the costs was subcontracted out to vendors, most of the costs were paid
                 to their related company. A schedule of costs charged to the project follows:

                                                 Payee                          Amount
                               Contracted moving and storage costs                $10,921
                               Contracted relocation services                      63,643
                               Related company relocation services                210,796
                                                Total                            $285,360




6
  Multifamily Summary Appraisal report, HUD form 92264, approved on December 4, 2003.
7
  On their Mortgagor’s Certificate of Actual Cost, form HUD 92330, signed May 31, 2005, in support of their HUD-
insured mortgage.

                                                       9
Related Company Costs Were
Unreasonable and Unsupported

           The $210,796 charged for related company relocation services was unreasonable
           and unsupported. The costs were unreasonable because they were based on
           inflated employee costs and estimated hours. For example, the owners paid one
           employee $66 dollars per hour but charged the project $190 per hour with no
           explanation for the difference. Also, the owners did not maintain records to show
           how many hours employees spent on relocation activities. The owners began
           charging the project on a monthly basis from January 2004 through March 2005;
           however, no detailed supporting documentation for the monthly journal entries
           was maintained. In addition, the documentation provided only consisted of a
           summary schedule by employee, along with estimated hours and a list of activities
           the owners’ controller stated were performed (see appendix C).

           The owners’ regulatory agreement and certification with HUD required that
           amounts paid to related companies not exceed the costs that would be incurred in
           making arms-length purchases on the open market. However, the owners did not
           show that the rates, hours, and amounts charged were comparable to what would
           have been paid on the open market. Without this comparison, these costs are
           considered unreasonable and unsupported.

           In addition, the owners included these unreasonable and unsupported relocation
           costs in the cost certification submitted to HUD, causing the HUD-insured
           mortgage to be overstated (see finding 3).

The Project Was in a Non-
Surplus-Cash Position

           The owners reported project operating losses during 2004 and 2005 totaling
           $314,057, which placed the project in a non-surplus-cash position. The
           unreasonable and unsupported relocation costs contributed to these losses.
           Federal statutes prohibit HUD-insured multifamily project owners from using
           project funds for unreasonable expenses when the project is in a non-surplus-cash
           position. A major concern of HUD’s mortgage insurance programs is the
           inappropriate use of project funds, which can contribute to mortgage defaults, the
           need for additional financial assistance from HUD, and losses to HUD through
           the sale of devalued foreclosed properties. Since the owners paid their related
           company unreasonable and unsupported amounts for relocation services when the
           project was in a non-surplus-cash position, they may be subject to administrative
           sanctions.




                                           10
Conclusion


             The owners paid their related company unreasonable and unsupported costs for
             relocation services when the project was in a non-surplus-cash position. These
             conditions were caused by weak internal controls over related party transactions
             and accounting. In addition, since some of the costs were capitalized and some
             were expensed to operations, the owners’ inconsistent accounting treatment
             caused HUD to overinsure the mortgage (see finding 3) and contributed to
             unnecessary operating losses.


Recommendations


             We recommend that HUD require the owner to

             2A.    Reimburse the project the $131,292 charged to operations for unreasonable
                    and unnecessary relocation costs, with the amounts reimbursed placed in the
                    project’s reserve for replacement or a restricted capital account that requires
                    HUD approval for the release of the funds.

             2B.    Implement adequate written procedures and controls to ensure that future
                    disbursements for project expenses comply with the regulatory agreement
                    and HUD’s requirements.




                                              11
                                     RESULTS OF AUDIT

Finding 3: The Owners Included Unreasonable and Unsupported
Expenses in Their HUD-Insured Mortgage Cost Certification
The owners included $229,868 in unreasonable and unsupported relocation costs (see finding 2)
and $50,403 in unsupported operating costs in the cost certification they provided to HUD. This
problem occurred due to weak accounting controls over cash disbursements and related party
transactions. As a result, HUD overinsured the project’s mortgage by $239,700.



    The Certification Included
    Unreasonable and Unsupported
    Costs

                 The owners reported $284,868 in relocation costs on their cost certification for the
                 mortgage to relocate tenants during the project’s rehabilitation. 8 However,
                 $229,868 of the relocation costs were unreasonable and unsupported because they
                 were based on inflated employee labor costs and not supported by invoices or
                 other records showing the rates and hours charged (see finding 2). The owners
                 also reported $50,403 in unsupported repairs and maintenance costs and
                 miscellaneous administrative and bad debt operating costs on their cost
                 certification. HUD requires proper bills and receipts for all costs included in
                 HUD-insured mortgages. The unreasonable and unsupported costs should not
                 have been included in the cost certification because it overstated project costs and
                 caused HUD to overinsure the project’s mortgage.

    The Mortgage Was
    Overinsured by $239,700


                 The owners included $280,271 in unreasonable and unsupported project costs on
                 the mortgage certification. This increased the mortgage amount that HUD insured
                 by $239,700, calculated as follows:




8
 Mortgagor’s Certificate of Actual Cost, form HUD 92330, 5/31/05. The owners capitalized $154,068 and expensed
$130,800 (total $284,868). This amount differed by $492 from the $285,360 charged to the project through 9/30/06.

                                                       12
                    Description                                                              Amount
                    Total land and improvements                                                 $ 5,104,978
                    Less: unreasonable and unsupported costs                                      (280,271)
                    Add: reported net operating loss during construction                              6,050
                    Audited adjusted total land and improvements                                $ 4,830,757
                    Statutory percentage (90% of line 6)                                        $ 4,347,681
                    Audited maximum insurable mortgage (in multiples of $100)                   $ 4,347,600
                    HUD-approved maximum insurable mortgage                                    $ 4,587,300
                    Overinsured amount                                                            $ 239,700



Conclusion




                  The owners paid their related company an unreasonable and unsupported amount
                  for relocation services and did not maintain adequate records to support other
                  amounts charged to the project. This problem occurred due to weak accounting
                  controls over cash disbursements and related party transactions. As a result, HUD
                  overinsured the project’s mortgage by $239,700, placing HUD’s insurance fund at
                  unnecessary risk.


Recommendations


                  We recommend that the director of HUD’s Boston Multifamily Hub require the
                  owners to

                  3A.      Make a $196,593 principal payment or establish an escrow with the lender
                           from nonproject funds or the restricted account established under
                           recommendation 2A to pay down the amount of overinsurance due to
                           unreasonable relocation costs. 9

                  3B.      Provide support for or make a $43,107 principal payment from nonproject
                           funds to pay down the amount of overinsurance due to unsupported (1)
                           repairs and maintenance costs expense, (2) miscellaneous administrative
                           costs, and (3) bad debt expenses. 10



9
  Only a portion of the $229,868 in unreasonable relocation costs was in the amount insured. This amount was
determined by the ratio of the unreasonable relocation costs to the total unreasonable and unsupported cost times the
overinsured amount as follows: $229,868/$280,271 x $239,700 = $ 196,593.
10
   Only a portion of the $50,403 in unsupported costs was in the amount insured. This amount was determined by
the ratio of the unsupported costs to the total unreasonable and unsupported cost times the overinsured amount as
follows: $50,403/$280,271 x $239,700 = $ 43,107.

                                                         13
3C.   Establish accounting procedures to comply with the project’s regulatory
      requirements governing the maintenance of bills and receipts.




                               14
                                      RESULTS OF AUDIT

Finding 4: The Owners Did Not Properly Manage the HUD-Assisted
Learning Center
The learning center was managed improperly because the owners did not establish a viable
business plan to obtain sufficient revenues to become self-sufficient without HUD funding. In
addition, the owners did not adequately plan, provide, and evaluate learning center programs in
accordance with HUD’s requirements. They also reported incomplete and conflicting
information to HUD on operating budgets and business plans and did not use $110,000 in non-
HUD funds received for startup costs as reported to HUD. As a result, the learning center may
require additional HUD subsidies, and project funds were not used effectively to help subsidized
residents obtain the necessary skills to become self-sufficient and attain jobs. Also, HUD did not
have accurate and reliable information on which to base funding decisions and may have
approved higher rent subsidies than were required for the project.


     The Owners Did Not Obtain
     Sufficient Non-HUD Funding

                   The owners did not show that they would receive sufficient funding to make the
                   learning center self-sufficient without HUD funds. HUD encourages owners to
                   use non-HUD funds for learning centers. HUD’s intention is to be the last, most
                   flexible piece of the funding and should be thought of as venture capital and not a
                   guaranteed long-term source of funds However, the owners did not obtain
                   sufficient funding but, instead, used $47,000 in HUD-assisted project funds for
                   learning center costs during the first 10 months of 2006 and estimated that
                   $60,000 would be necessary to operate the center per year. To fund the costs,
                   they applied for and received one grant for $9,412 and plan to apply for more
                   grants if they become available. In addition, the owners’ business plan did not
                   show that they would develop or receive sufficient funding to ensure that the
                   center would be self-sufficient without HUD funding in the long term.

     Programs Were Not Adequately
     Planned, Provided, and
     Evaluated

                   The owners did not adequately plan, provide, and evaluate learning center
                   programs in accordance with HUD’s requirements. HUD requires resident
                   involvement in all phases of planning and implementation with a primary focus
                   on resident jobs, job training, and job development. 11 The owners told HUD that
                   project funds would be used to provide educational programs to 10 adults and 25
11
     The Management Agent Handbook, 4381.5, chapters 9-2 and 9-2c.

                                                      15
                   children. 12 However, the owners provided no evidence that they identified
                   tenants’ education level, employment status, or computer literacy or otherwise
                   identified a need for these programs. As a result, tenants did not attend the adult
                   education programs offered, and project funds were not used as planned to
                   provide adult education and help residents of insured and assisted housing attain
                   jobs.

                   In addition, although the owners developed some goals and tracked attendance for
                   its after school and summer programs, we could not verify that the programs
                   achieved their goals because the owners did not establish and implement a
                   tracking system to measure and report results. This problem occurred because the
                   owners did not include training objectives in the business plan linked with action
                   steps and expected results as required by HUD.

     Incomplete and Conflicting
     Information Was Reported to
     HUD

                   The owners reported incomplete and conflicting information to HUD. For
                   example, they told HUD that a portion of the $110,000 received from the state of
                   Connecticut would be available for learning center operating expenses after
                   startup costs were paid. However, they used development funds for startup costs
                   and transferred the $110,000 to their related company (see finding 1). In
                   addition, the owners’ business plan provided to HUD pledged $60,000 in
                   donations from their related company. However, the related company did not
                   donate the $60,000. As a result, project operating funds were required to fund the
                   learning center.

                   The owners also submitted an incomplete budget-based rent increase request and
                   operating budget 13 to HUD on February 20, 2006. The budget was incomplete
                   and inconsistent because it did not include $35,000 in grant funds the owners
                   projected on the business plan submitted to HUD on February 21, 2006. As a
                   result, the amount of project funds required to operate the learning center was
                   overstated in the rent increase budget, and HUD may have approved higher rents
                   than were required for the project.

                   In addition, the owners accrued $60,000 in expenses payable to their contracted
                   learning center provider in 2005 and reported it in their 2005 financial statements.
                   However, during the course of our audit, the auditee’s controller stated that the
                   expense was not paid because the contract was terminated, and the costs were
                   reversed on January 1, 2006. However, the audited financial statements were not
                   adjusted.


12
     Moosup Gardens Neighborhood Networks Business Plan, Fiscal Years 2006 to 2008, page 11. .
13
     Budget Worksheet, form HUD 92547-A, signed by owners on February 20, 2006.

                                                       16
Conclusion



             The learning center was improperly managed because the owners did not establish
             a viable business plan to become self-sufficient without HUD funding and deliver
             effective programs in an economical and efficient manner. They also did not
             determine the residents’ training needs and reported incomplete and conflicting
             non-HUD sources of funds to HUD. As a result, the learning center may require
             HUD subsidies in the future, project funds were not used to help residents attain
             jobs, and HUD may have approved higher rents than were required for the
             project.

Recommendations



             We recommend that the director of HUD’s Boston Multifamily Hub require the
             owners to

             4A.    Establish and implement a business plan to provide and evaluate learning
                    center programs that meet tenant needs in accordance with HUD’s
                    requirements

             4B.    Establish and implement a written plan to make the learning center self-
                    sufficient.

             4C.    Accurately report learning center operation costs, including all sources and
                    uses of funds, to HUD when submitting operating budgets.

             We recommend that the director of HUD’s Boston Multifamily Hub

             4D.    Discontinue HUD approval to use operating funds for the learning center,
                    thereby eliminating HUD’s $60,000 annual subsidy.

             4E.    Recalculate the amount of rent subsidy provided based on the reduced
                    amount of learning center support.




                                              17
                                      RESULTS OF AUDIT

Finding 5: The Owners Paid Their Related Management Company
Ineligible Management Fees
           The owners paid their related management company $7,396 in ineligible management
           fees. This occurred because the project’s contract with the owners’ related management
           agent based the management fee on 6 percent of all collections from the property.
           However, HUD only approved fees at 6 percent of residential income and miscellaneous
           fees. In addition, the owners erroneously included interest rate reduction payments and
           excess rental income in their fee calculations that were not allowed by HUD regulations.
           As a result, $7,396 in project funds was not available for project operations.




     The Management Contract and
     Procedures Were Incorrect


                   Management agents operating HUD-insured and HUD-assisted properties are paid
                   management fees for their services. HUD approves the fees that may be paid out
                   of project funds as provided for in project regulatory agreements and rental
                   assistance contracts. Owners determine the actual amount of fees paid to the
                   management agent. We determined that the owners’ related management agent
                   company, Vesta Management, overcharged the project $7,396 for management
                   fees during the period January 2004 through September 2006.

                   The overcharges occurred because the project’s contract with the owners’ related
                   management agent based management fees on 6 percent of all collections from
                   the property. However, HUD only approved fees based on 6 percent of
                   residential income and miscellaneous fees. 14 Therefore, the commercial income
                   the owners included in their calculation of management fees was not authorized.
                   Also, additional overcharges occurred when the agent erroneously included
                   interest rate reduction payments and excess rental income in its calculations,
                   which were not allowable by HUD regulations.




14
     Project Owners’/Management Agent’s Certification, form HUD 9839.


                                                      18
             We calculated the amount of ineligible fees charged as follows:
                    Description              2004         2005           2006           Total
                                                                     through Sep. 30
             Excess rental income           $ 18,654      $ 7,594          $ 37,970    $ 64,218
             Interest reduction payments           0       53,389                 0    $ 53,389
             Laundry income                    3,818        1,838                 0      $5,656
                         Subtotal           $ 22,472     $ 62,821          $ 37,970    $123,263
             Management fee rate                 6%           6%                6%          6%
             Ineligible fees                 $ 1,349       $3,769           $ 2,278      $7,396



The Owners Repaid the Project



             Following our fieldwork the owners repaid the project $7,396 and agreed to
             establish a new management agent agreement and new procedures to calculate the
             amount of management fees earned.


Conclusion


             The owners charged the project $7,396 in ineligible management fees during the
             period January 2004 through September 2005. This occurred because the
             management agent’s contract included fees on income items not approved by
             HUD. Additional overcharges occurred because the management agent included
             interest rate reduction payments and excess rental income in its calculations that
             were not allowable by HUD regulations. As a result, the project overpaid $7,396,
             and these funds were not available for project operations.

Recommendations



             We recommend that the director of HUD’s Boston Multifamily Hub require the
             owners to

             5A.    Repay the project $7,396 from nonproject funds for ineligible management
                    fees.

             5B.    Revise the management agreement and improve accounting procedures to
                    ensure that management fee calculations are based solely on the HUD-
                    approved amounts, thereby reducing future management fees an estimated
                    $3,038 per year (reduced outlays in calendar year 2007 based on calendar
                    year 2006 overcharges through September 2006 annualized).

                                             19
                                          RESULTS OF AUDIT

Finding 6: The Owners’ Procurement Procedures Did Not Comply with
HUD Regulations
The owners’ procurement procedures did not comply with HUD regulations. This occurred
because the owners and their management agent did not establish adequate contracting
procedures. The owners’ management agent stated that the project’s on-site project manager was
supposed to obtain three bids for each contract. However, it could not provide any bids to show
that contracts were competitively awarded. We identified four contracts totaling $240,868
charged to the project that were not supported by competitive bids to show that they were
reasonable. If the owners and their management agent do not implement proper procurement
procedures, future project funds may be wasted.



     Contracts Were Not
     Competitively Awarded

                     The owners certified to HUD in June in 2003 that they would obtain verbal or
                     written cost estimates for goods and services, as necessary. However, the owners’
                     management agent did not establish formal written contracting procedures to
                     ensure that the cost estimates were obtained and documented. The management
                     agent’s unwritten policy was to obtain three bids for each service contract, but it
                     did not maintain cost estimates for the bids. As a result, we could not determine
                     the reasonableness of $240,868 in project costs incurred from January 1, 2004,
                     through October 31, 2006, as follows:

                                  Service           2004         2005           2006             Total
                                                                           through Oct. 31

                              Snow removal        $27,574      $57,420           $19,154     $104,148
                              Landscaping         $15,720      $15,746           $12,567      $44,033
                              Auditing 15                       $8,500            $9,500      $18,000
                              Waste removal       $23,942      $27,238           $23,507      $74,687
                              Totals              $67,236     $108,904           $64,728     $240,868




15
     Auditing costs for 2004 were less than $5,000 and, therefore, not included in this table.

                                                            20
Conclusion


             The owners’ procurement procedures did not comply with HUD regulations. This
             occurred because they did not establish and implement adequate procedures
             requiring documented cost estimates. As a result, they could not show that
             $240,868 in project service costs was reasonable.


Recommendation


             We recommend that the director of HUD’s Boston Multifamily Hub require the
             owners to

             6A.   Establish and implement formal written procurement procures to document
                   and ensure that services are competed and costs do not exceed amounts
                   ordinarily paid for such goods and services.




                                           21
                         SCOPE AND METHODOLOGY

We performed our audit of the project in accordance with generally accepted government
auditing standards between August 2006 and February 2007. Our fieldwork was completed at
Vesta Equity 2003 LLC’s offices at 245 Hopmeadow Street, Weatogue, Connecticut, and the
HUD Hartford field office hub in Hartford, Connecticut. Our audit covered the period December
23, 2003, through October 31, 2006. To accomplish our audit objectives, we

   •   Reviewed federal laws and regulations and the owners’ regulatory agreement with HUD and
       obtained an understanding of the owners’ corporate structure as it relates to the project.

   •   Interviewed and held meetings with one project owner, his controller, selected project staff,
       the projects’ independent public auditor, and HUD personnel and officials.

   •   Reviewed the project’s financial statements and independent public accountant’s reports.

   •   Reviewed supporting documentation for related company loans and advances to ensure
       compliance with HUD’s requirements.

   •   Interviewed the owners’ independent public auditor and reviewed supporting
       documentation to determine whether relocation services were reasonable and adequately
       supported.

   •   Interviewed the owners’ independent public auditor and reviewed supporting
       documentation for the owners’ Certificate of Actual Cost, form HUD 92330, to determine
       whether HUD overinsured the project’s mortgage. We selected a nonrepresentative
       sample of accounts for detailed testing based on risk; and reviewed the rent free unit, bad
       debt, and miscellaneous administrative cost accounts, which comprised $50,403 of the
       $580,605 in operating costs charged to the project. Our results apply only to these
       accounts that we questioned in their entirety and were not projected to the total operating
       costs charged to the project.

   •   Interviewed the owners’ learning center vice president and reviewed supporting
       documentation to determine whether the HUD-assisted center was managed properly.

   •   Reviewed supporting documentation for management fees to ensure that they were
       properly supported, calculated, and within HUD-approved limits.

   •   Reviewed the owners’ contracting procedures to verify that they ensured that contracted
       project costs were reasonable.




                                                22
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:
   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:
                      •   Controls over the repayment of owner advances and related party
                          transactions.
                      •   Controls over payments to related companies for relocation services.
                      •   Controls over accounting and maintaining adequate support for project
                          development and operating costs.
                      •   Controls over the management of the project’s learning center.
                      •   Controls over the payment of management fees.
                      •   Controls over the procurement of services exceeding $5,000.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                                 23
Significant Weaknesses


           Based on our review, we believe the following items are significant weaknesses:

                  •   Accounting procedures did not ensure that transfers of owner funds to
                      the project were properly supported, classified, and approved by HUD
                      before transfer and repayment (see finding 1).
                  •   Accounting procedures did not ensure that payments to related
                      companies for relocation services were reasonable and properly
                      supported (see finding 2).
                  •   Accounting procedures did not ensure that project development and
                      operating costs were reasonable, properly classified, and adequately
                      supported (see finding 3).
                  •   Accounting procedures did not ensure that management fees were
                      properly calculated and paid (see finding 5).
                  •   Contracting procedures were not established and implemented to
                      ensure that contract costs exceeding $5,000 were reasonable (see
                      finding 6).




                                           24
                                        APPENDIXES

Appendix A
                   SCHEDULE OF QUESTIONED COSTS
                  AND FUNDS TO BE PUT TO BETTER USE

 Recommendation         Ineligible Unsupported       Unreasonable Funds to be put         Cost
     number                     1/          2/      or unnecessary to better use 4/    exceptions
                                                                3/
            1A          $106,000                                                         $106,000
            1B           $19,000                                                           $19,000
            1C           $96,348                                                           $96,348
            1D                          $13,652                                            $13,652
            1E                          $56,877                                           $ 56,877
            2A                                           $131,292                        $131,292
            3A                                           $196,593                        $196,593
            3B                          $43,107                                            $43,107
            4D                                                              $60,000        $60,000
            5A            $7,396                                                            $7,396
            5B                                                               $3,038         $3,038
     Total exceptions   $228,744      $113,6361          $327,885           $63,038      $733,303

1/        Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
          that the auditor believes are not allowable by law; contract; or federal, state, or local
          policies or regulations.
2/        Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
          or activity when we cannot determine eligibility at the time of audit. Unsupported costs
          require a decision by HUD program officials. This decision, in addition to obtaining
          supporting documentation, might involve a legal interpretation or clarification of
          departmental policies and procedures.
3/        Unreasonable/unnecessary costs are those costs not generally recognized as ordinary,
          prudent, relevant, and/or necessary within established practices. Unreasonable costs
          exceed the costs that would be incurred by a prudent person in conducting a competitive
          business.
4/        Recommendations that funds be put to better use are estimates of amounts that could be
          used more efficiently if an Office of Inspector General (OIG) recommendation is
          implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
          interest subsidy costs not incurred by implementing recommended improvements,
          avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
          which are specifically identified.




                                                  25
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         26
 Appendix B

            AUDITEE COMMENTS AND OIG’s EVALUATION


 Ref to OIG Evaluation      Auditee Comments




Comment 1




Comment 2




Comment 3




Comment 4




                             27
 Appendix B

            AUDITEE COMMENTS AND OIG’s EVALUATION


 Ref to OIG Evaluation      Auditee Comments




Comment 5




Comment 6


Comment 7




Comment 8



Comment 9




                             28
   Appendix B

             AUDITEE COMMENTS AND OIG’s EVALUATION


   Ref to OIG Evaluation     Auditee Comments




Comment 10




 Comment 11




 Comment 12




                              29
     Appendix B

             AUDITEE COMMENTS AND OIG’s EVALUATION


     Ref to OIG Evaluation   Auditee Comments




Comment 13




Comment 14




                              30
 Appendix B

         AUDITEE COMMENTS AND OIG’s EVALUATION


 Ref to OIG Evaluation   Auditee Comments




Comment 15




Comment 16




Comment 17




                          31
   Appendix B

             AUDITEE COMMENTS AND OIG’s EVALUATION


   Ref to OIG Evaluation     Auditee Comments




Comment 18




                              32
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         33
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         34
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         35
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         36
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         37
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         38
Appendix B

                        OIG Evaluation of Auditee Comments

Comment 1       We could not verify the owners' claim that they advanced $362,000 to the project
                because they reported $335,209 in advances on their financial statements and our
                audit work verified the project received $305,209. After our field work was
                complete, the owners provided bank statements showing $362,390 was deposited
                into the project's bank accounts. However, the statements did not show source of
                funds and therefore, we could not verify the deposits were owner advances. We
                note that the amount advanced does not affect the amount of repayments that must
                be returned to the project.

Comment 2       HUD encourages owners to advance funds to their projects in critical situations
                and we acknowledge that the owners advanced funds to the project. However, the
                owners did not maintain fully auditable records. Further, we note that advances
                made to the project may only be repaid from surplus cash as calculated at the end
                of the accounting period.

Comment 3       We disagree the number in the report is misleading and believe the owners do not
                fully understand the requirements for owner advances, surplus cash, and our
                reason for including operating losses in the report. HUD requires owner advances
                be repaid only when there is surplus cash and repayment of such advances when
                the project is in a non-surplus cash position subjects the owners to penalties and
                sanctions. 16 It is important to note that HUD insured projects do not have surplus
                cash during the construction period because any net operating profits during
                construction are required to be used to fund the construction. 17

                Therefore, the project did not have surplus cash during the construction period,
                December 23, 2003 through March 31, 2005. The project also did not report
                surplus cash in their 2005 financial statements. Therefore, the 2004 and 2005
                repayments questioned in the report were not made from surplus cash and must be
                repaid. Also, we included the operating losses in the report to show the project
                was losing significant money when the owners repaid themselves. We did not
                include the 2006 fiscal year end surplus cash position in the report because it is
                not relevant to the 2004 and 2005 repayments.

                Upon further review we determined that $19,000 18 of the $125,000 in ineligible
                repayments we questioned in recommendation 1A was repaid to owners during
                the construction period and $106,000 was repaid during operations. Therefore,
                we restated our recommendations 1A and 1B to require that the owners’ repay the
                project $106,000 from non-project funds for owner advances with the amounts
                reimbursed placed in the project’s reserve for replacement or a restricted capital
                account that requires HUD approval for the release of the funds; and also pay
16
   Financial Operations and Accounting Procedures for Insured, HUD Handbook 4370.2, chapter 2-11
17
   Mortgage Credit Analysis for Project Mortgage Insurance, HUD Handbook 4470.1 chapter 11-6k.
18
   Check numbers 178,210, 218, and 412.

                                                     39
Appendix B

                  OIG Evaluation of Auditee Comments

            down the project’s mortgage $19,000 from non-project funds for ineligible owner
            advance repayments made during construction.

Comment 4   The owners acknowledged the report was accurate and the project was in a non-
            surplus-cash position when they repaid the owner advances. Therefore, the
            owners repaid themselves in violation of their Regulatory Agreement with HUD
            and HUD regulations. See Comment 3. Our recommendations will restore these
            ineligible payments to the project.

Comment 5   The owners' reason for the lack of surplus cash in 2005 is incomplete because
            they failed to mention the $210,000 in unreasonable and unsupported relocation
            expenses paid to their related company which if not made, would have had a more
            substantial effect on surplus cash than the $53,000 shortfall they attributed to
            HUD. In addition, we note that the project had net operating losses of more than
            $300,000 during this period, much more than the $53,000 in lost rents cited by the
            owners.

Comment 6   We added footnote three to the report addressing the lack of surplus cash during
            construction and the auditee’s calculation of surplus cash at fiscal year end 2005.

Comment 7   We disagree that the ineligible repayments should be returned to the project
            operating account. After considering the owners’ weak internal controls, we
            believe returning project funds expensed during operations to a restricted account
            should ensure they are expended in accordance with HUD's requirements. In
            addition, repayments made from operating funds during construction should be
            used to pay down the mortgage. See Comment 3.

Comment 8   We could find no regulatory or programmatic basis for the owners claim that "not
            more than this smaller amount could be treated as disallowed repayment due to
            negative surplus cash condition of the property." Therefore, our
            recommendations remain unchanged except for recommendations 1A and 1B as
            noted in Comment 3.

Comment 9   We disagree that we are inconsistent. All repayment made while the project was
            in a non-surplus cash position must be repaid. In addition, the owners’ response
            is based on the hypothetical proposition of what would have happened if their
            company did not receive $131,000 for unreasonable and unsupported relocation
            services charged to operations. The fact is their company received more $210,000
            from the project for unreasonable and unsupported relocation costs (See finding 2
            and appendix C). Further, the owners repaid $19,000 in owner advances during
            construction which should be used to pay down the mortgage. See Comment 3.



                                             40
Appendix B

                          OIG Evaluation of Auditee Comments
Comment 10 Our initial draft report questioning $24,827 19 of ineligible principal payments and
           financing fees costs and $85,712 in unsupported costs has been revised based on
           additional supporting documentation provided in the auditee’s response. As a
           result, we now consider $56,877 in costs to be unsupported, which includes the
           $24,827 previously questioned as ineligible. The auditee acknowledged they are
           attempting to obtain proper invoices for these payments and we acknowledge the
           mortgagee’s failure to provide invoices. However, the auditee's regulatory
           agreement requires the auditee to maintain proper invoices to support all project
           payments. HUD should review any additional documentation the auditee may
           obtain and make a final determination whether to allow payment from project
           funds for these costs.

Comment 11 We disagree that the findings are inconsistent. See Comment 9.

Comment 12 By regulation HUD may or may not increase the $55,000 initially approved for
           relocation expenses. 20 Therefore, during the audit resolution process HUD should
           determine whether they approve the additional costs and adjust the required
           repayment in recommendation 2A, if necessary.

Comment 13 The owners provided no evidence the amount paid to their related company for
           relocation costs was reasonable or supported. We asked the owners on November
           16, 2006 and other occasions to provide cost justifications for all related company
           services charged to the project to show the amount paid was reasonable. We have
           not received an adequate response to support the estimated hours and rates they
           used to charge the project $210,796 for relocation services. Therefore, we
           continue to question the costs as unreasonable and unsupported in the report and
           recommendation 2A.

Comment 14 The owners did not agree with recommendation 3A, however, they provided no
           evidence the relocation costs were reasonable or supported. Regarding the
           owners’ statements on principal payment restrictions, HUD program officials
           advised us that rather than authorizing the principal prepayment provision or lock-
           out to be broken HUD may approve establishing an escrow with the lender to be
           used to pay down the mortgage when the lock-out expires. Therefore, we
           included this option in our recommendation 3A.




19
   $23,208.50 for a "deposit” paid to the mortgagee, plus $1,620 paid to the bank for a working capital deposit/line
of credit
20
   Multifamily Accelerated Processing Guide, Chapter 14.15 paragraph N 9 and Chapter 14.18 paragraph D 2.

                                                         41
Appendix B

                    OIG Evaluation of Auditee Comments
Comment 15 We agreed and reclassified the $25,458 in "rent-free unit" charges to $25,458 in
           "repairs and maintenance expense" in the report and recommendation 3B repairs
           and maintenance expense. However, the costs still have not been supported.

Comment 16 The owners agreed with our recommendations 4A and 4B to establish a revised
           business and financing plan the Moosup learning center. However, they did not
           address recommendation 4C to accurately report learning center operation costs,
           including all sources and uses of funds, to HUD when submitting operating
           budgets.

              We did not revise the subsidy amount we questioned in recommendation 4D. The
              owners’ comment that the project only receives a 30% federal subsidy does not
              consider HUD’s interest rate subsidy and voucher subsidy. HUD provides
              mortgage insurance for all project units and provided more than $70 thousand in
              interest rate reduction payments based on all units in 2006. HUD also subsidizes
              11 residents with Housing Choice Vouchers in addition to the 27 project based
              Section 8 units. Thus, HUD clearly provides more subsidy than the auditee
              disclosed and we disagree that the amount of subsidy included in the operating
              budget be factored down.

Comment 17 We concur the $7,396 overpayment was deposited in the project's operating
           account. During audit resolution HUD should review the procedures, the
           repayment, and close the finding if they determine corrective actions are sufficient
           to correct condition and provide assurance they will not recur.

Response 18 We have addressed each of the issues in the comments above and except for the
            minor changes noted in our previous comments, our findings and
            recommendations remain unchanged.




                                              42
Appendix C                                                             Page 1 of 2

       SCHEDULE OF RELATED COMPANY RELOCATION
                    SERVICES COSTS




Note: We redacted employee and contractor names from the controller’s schedule and inserted
job title and the third-party text boxes using Adobe software.




                                             43
Appendix C                         Page 2 of 2

    SCHEDULE OF RELATED COMPANY RELOCATION
                 SERVICES COSTS




                      44
Appendix D

                 SCHEDULE OF RELATED COMPANIES



The project, also known as Moosup Gardens Apartments and Vesta Moosup LLC, is owned by
HDASH LLC (99 percent) and Vesta Equity 2003 LLC (1 percent). HDASH is owned by two
members, “the owners.”

Vesta Corporation performs no functions for the project and is the parent holding company for
its wholly owned subsidiaries, Vesta Equity Corporation and Vesta Management Corporation.
Vesta Corporation is owned by RFD Acquisition Corporation. RFD Corporation is owned by
J&Z Investment Company. J&Z Investment Company’s shareholders are the project owners’
family members (70 percent) and nonrelated investors (30 percent).

Vesta Equity Corporation performs no functions for the project but owns Vesta Equity 2003.
Vesta Equity 2003 was created to perform management functions on behalf of the project.

Vesta Management Corporation is the legal entity that manages the project’s day-to-day
operations such as renting apartments, collecting rents, maintenance, and other daily property
operational tasks.




                                               45
